<html>
<title> - A REVIEW OF THE UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 A REVIEW OF THE UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS

=======================================================================

                                (113-22)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 5, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
81-369                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          ANN KIRKPATRICK, Arizona
ERIC A. ``RICK'' CRAWFORD,           LOIS FRANKEL, Florida
Arkansas,                            ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
RICHARD L. HANNA, New York           EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              ELIZABETH H. ESTY, Connecticut
REID J. RIBBLE, Wisconsin            MICHAEL H. MICHAUD, Maine
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                JANICE HAHN, California
TOM RICE, South Carolina             SEAN PATRICK MALONEY, New York
MARKWAYNE MULLIN, Oklahoma           NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois
VACANCY
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Major General Michael J. Walsh, Deputy Commanding General for 
  Civil and Emergency Operations, United States Army Corps of 
  Engineers; accompanied by Theodore A. ``Tab'' Brown, P.E., 
  Chief, Planning and Policy Division, United States Army Corps 
  of Engineers...................................................     6

                PREPARED STATEMENT SUBMITTED BY WITNESS

Major General Michael J. Walsh...................................    36

                       SUBMISSION FOR THE RECORD

Major General Michael J. Walsh, Deputy Commanding General for 
  Civil and Emergency Operations, United States Army Corps of 
  Engineers, response to request for information from Delegate 
  Eleanor Holmes Norton of the District of Columbia..............    19

[GRAPHIC] [TIFF OMITTED] T1369.001

[GRAPHIC] [TIFF OMITTED] T1369.002

[GRAPHIC] [TIFF OMITTED] T1369.003

[GRAPHIC] [TIFF OMITTED] T1369.004

[GRAPHIC] [TIFF OMITTED] T1369.005



 A REVIEW OF THE UNITED STATES ARMY CORPS OF ENGINEERS CHIEF'S REPORTS

                              ----------                              


                        WEDNESDAY, JUNE 5, 2013

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Good morning. The Committee on Transportation 
and Infrastructure, Water Resources and Environment 
Subcommittee, will convene.
    At this time I would like to welcome General Walsh with our 
testimony here. And our committee hearing today is to review 
the United States Army Corps of Engineers Chief's Reports.
    And at this time I want to ask unanimous consent that 
Members not on the committee be permitted to sit with the 
committee at today's hearing. Hearing no objection, so ordered.
    At this time I want to yield time to our chairman of the 
full T and I committee, Chairman Shuster, for any opening 
remarks you may have.
    Mr. Shuster. Thank you, Mr. Chairman. I appreciate you 
letting me go first. I have probably about a 14-hour day in the 
Armed Services Committee today. I hope it is only 14 hours, but 
we will see.
    And I would also like to welcome Representative Cramer from 
North Dakota, who has a keen interest in what the Corps does, 
here today to sit at the dais and listen in.
    Again, I want to say thank you to General Walsh. Thank you 
first for your service, and I know you are going off to greener 
pastures later in the year, so we really appreciate your 
service, and thanks for being here today. As well as Mr. Brown, 
thank you for being here. I look forward to hearing from you.
    Today's hearing will play a valuable role in the 
committee's development of the Water Resources Development Act, 
also known as WRDA. Based on extensive studies, Chief's Reports 
make final recommendations to authorize specific construction 
activities. And that, I understand, is a Chief's Report. That 
is the first I have seen of them. I have heard how large they 
are and how extensive they are, but seeing is believing.
    This hearing will bring greater transparency to the process 
and will provide the committee the opportunity to closely 
examine current pending Chief's Reports. It is critical for 
Congress to reengage in the development of the Nation's water. 
Congress must have a role in determining the agency priorities 
and ensuring we fulfill our constitutional responsibilities.
    Over the last few months, we have held a number of public 
educational forums, roundtables and hearings on the Corps of 
Engineers program. And I thank Chairman Gibbs for all his hard 
work in putting those together and participating.
    The themes that have emerged from these public forums 
include the importance of project prioritization, public-
private partnerships, empowering non-Federal project sponsors, 
and especially study acceleration. While it once took the Corps 
3 to 5 years to complete a study, it has now become the norm 
for the Corps to take 10, 12 or even 15 years to produce a 
study. And it is no wonder it takes so much time since the 
Corps by law and regulation has to review in detail many 
different alternatives.
    Just because a study is costly, complex and long does not 
necessarily mean it is a better project. This is not 
necessarily the fault of the Corps of Engineers. The agency has 
to clear hurdles placed in their way by other Federal agencies 
like the Department of Interior, and in some cases non-Federal 
project sponsors have difficulties on their end.
    Congress has only enacted two WRDA laws in the last 14 
years, and we have many goals we want to accomplish in WRDA, 
but one of the most important is to get WRDA back to a 2-year 
cycle to ensure Congress has a fundamental role in the 
development of the Corps of Engineers projects and in the 
oversight of the agency. Again, that is absolutely for me 
critical that we get back on a 2-year process. There is no 
reason we can't as long as we all dedicate ourselves to working 
towards that goal.
    I want to again thank Chairman Gibbs for holding the 
hearing. And again, General Walsh, thank you for being here 
today and thank you so much for your service to the Nation, and 
your wife's service to the Nation, because I know that she has 
been there by your side all along. So again, thank you. And I 
yield back my time.
    Mr. Gibbs. Thank you, Chairman Shuster. And I also thank 
you for your interest and your hard work too in working on this 
WRDA bill that really is going to improve our economic 
competitiveness and move our commerce up, especially our 
exports and job creation.
    All right. At this time I yield time to Ranking Member Tim 
Bishop for any comments he may have.
    Mr. Bishop. Thank you very much, Mr. Chairman. I too 
welcome General Walsh and his colleagues, and I thank you very 
much for your service to our country.
    Let me begin with a very simple statement. The Water 
Resources Development Act can create jobs and can provide 
critical protection and support for our communities, our 
businesses and our future. Over the last 6 months, this 
committee has had roundtables, listening sessions, discussions 
with stakeholders, meetings with the Corps of Engineers, and 
has held hearings, all with the intent of working towards 
developing a viable path forward on a WRDA bill.
    Congress has been integral to the planning and construction 
of water resources since--projects since our Nation's founding. 
From the authorization of Aids to Navigation in the 1700s, to 
the passage of several rivers and harbors acts in the 1900s, to 
the enactment of the first Water Resources Development Act in 
1974, Congress has established an ordered process for 
integrating needed policy, direction and project authorization.
    The original goal was to have a WRDA bill every 2 years, an 
ordered process that would support a definitive water 
management process. Since 1974, a period of almost 40 years, we 
have had ten subsequent WRDAs, not quite the 2-year average 
Congress had envisioned.
    Our challenge is that the last successful WRDA was in 2007, 
and now we are faced with substantial hurdles with respect to 
water infrastructure needs, increasing numbers of water-related 
disasters, national financial challenges, and reluctance by 
this body to provide project-specific guidance to the 
administration.
    We have heard repeatedly from Members of Congress and the 
public on the importance of WRDA to the Nation and to our local 
communities. No one has questioned the value of a well 
designed, constructed and managed Corps of Engineer project, 
whether they are for flood control, navigation, storm damage 
reduction or environmental restoration. The cumulative 
assemblage of these projects helps the Nation.
    Our responsibility in this committee and especially in this 
subcommittee is to authorize WRDA projects and direct the 
mission of the Corps of Engineers. If we do not perform that 
responsibility, we end up with two things happening: one, the 
administration ends up prioritizing projects, often on an 
entirely different set of metrics than what we as Members of 
Congress would want; and two, the process becomes more 
convoluted and time-consuming, resulting in inefficiencies and 
frustration.
    Let me reiterate. A well constructed and legislatively 
designed WRDA bill will provide jobs, provide direction and 
most importantly allow water projects to be constructed that 
will protect our communities, their economy and their lives. 
Nothing could be more important for us to do.
    Today's hearing is about the process that the Corps goes 
through to develop, review and ultimately authorize Chief of 
Engineers Reports. These Chief's Reports become the vehicle for 
Congress to authorize a select group of new projects and get in 
line for appropriations to actually construct them. Hearings in 
this Congress have focused on several of the policy-related 
issues that may be addressed in this WRDA. This hearing is 
focused on addressing the 25 yet unauthorized Chief's Reports.
    I wish to state clearly and unequivocally: a successful 
WRDA must include more than just policy and Chief's Reports. We 
have to find a way to address specific projects for flood 
control, hurricane and storm damage reduction, navigation, 
harbors and waterways, environmental restoration, and water 
supply. This requires that we provide the Corps with adequate 
resources and direction.
    The bottom line is that we have to do more, and by doing 
more, we will create jobs, jobs that will help sustain our 
Nation's financial recovery.
    Today we are going to hear about the amount of time that it 
takes to get a Chief's Report developed and shepherded through 
the process. The Chief's Report list today includes 25 vetted 
and administratively approved projects. We have had some good 
discussions with our colleagues across the aisle and with Corps 
technical staff to look for ways to make the process more 
efficient. While we all may have our own ideas about why it 
takes so long, in the case of some of these Chief's Reports, 
upwards of 10 years to make it through the system, one thing 
has become clear to me, and that is we have met the enemy and 
it is us.
    Congress, in our desire to help direct the administrative 
activities of the Corps of Engineers, has set up a long, 
convoluted, multistep process to move projects from planning to 
construction. We, the Congress, have overlaid a project process 
largely developed by technical experts with one developed by 
politicians, overlaid by yet another that is defined by the 
reality of the appropriations process, overlaid by yet another 
process, the budget oversight approach performed behind closed 
doors by the Office of Management and Budget. The end result is 
a mind numbing, convoluted, multilayered flow chart that now 
includes a minimum of 21 major steps along the journey. We have 
aided and abetted in the creation of this convoluted and time-
consuming approach, and we now have a chance to move ahead if 
we work together.
    In summary, our approach can be captured in three simple 
bullets: the Water Resources Development Act is designed to 
work most efficiently when it is done under regular order with 
Congress providing leadership on moving specific projects 
insist a timely manner; WRDA works when projects are funded at 
the appropriate levels, not nickel and dimed over 10 years and 
done in spurts and starts; WRDA works best when Congress, not 
the administration, determines project priorities and when it 
is done in a bipartisan way.
    We are committed to working with the chairman of both the 
subcommittee and the full committee and staff to develop a WRDA 
bill that will meet the needs of the American people, our 
colleagues and the administration.
    I thank you Mr. Chairman. I yield back.
    Mr. Gibbs. Thank you. And I will yield myself time for an 
opening statement.
    First like to welcome General Walsh and also thank him for 
his service as he looks for retirement here in October. I think 
the Corps is going to lose a huge asset.
    Today we are holding a hearing to review the Army Corps of 
Engineers Chief's Reports, the process the Corps undertakes to 
develop these projects and some of the steps the Corps is 
carrying out internally to accelerate the process.
    The U.S. Army Corps of Engineers is the Federal 
Government's largest water resources development and management 
agency. The Corps began its water resources program in the 
1800s when Congress for the first time appropriated money for 
improving our river navigation. Today the Corps of Engineers 
constructs projects for the purpose of navigation, flood 
control, beach erosion control and shoreline protection, 
hydroelectric power, recreation, water supply, environmental 
protection, restoration, and enhancement in fish and wildlife 
mitigation.
    The Corps of Engineers planning process considers economic 
development and environmental needs as it addresses water 
resources problems. The planning process addresses the Nation's 
water resources needs in a system context and explores a full 
range of alternatives in developing solutions.
    The U.S. Army Corps of Engineers is subject to all Federal 
statutes, including the National Environmental Policy Act, 
NEPA, the Clean Air Act, the Clean Water Act, the Endangered 
Species Act, the Fish and Wildlife Coordination Act, and all 
previous Water Resources Development Acts, Flood Control Acts, 
and Rivers and Harbors Acts. These laws and associated 
regulations and guidance provide the legal basis for the Corps 
of Engineers planning process.
    For instance, when carrying out a feasibility study, the 
National Environmental Policy Act, NEPA, requires the Corps of 
Engineers to include an identification of significant 
environmental resources likely to be impacted by the proposed 
project, an assessment of the impacts, a full disclosure of 
likely impacts and a consideration of a full range of 
alternatives, including a no action alternative and action by 
other alternatives. NEPA also requires a 30-day public review 
of any draft document, and a 30-day public review of any final 
document produced by the Corps of Engineers.
    Additionally, when carrying out a feasibility study, the 
Clean Water Act requires an evaluation of the potential impacts 
of a proposed project or action and requires a letter from a 
State agency ensuring the proposed project or action complies 
with State water quality standards. The Army Corps of Engineers 
also has to formulate alternative plans to ensure all 
reasonable alternatives are evaluated, including plans that 
maximize net national economic development benefits and other 
plans that incorporate other Federal, State and local concerns. 
Mitigation of advance impacts is to be included in each of the 
alternative plans reviewed in the study. The Corps of Engineers 
is also responsible for identifying areas of risk and 
uncertainty in the study so decisions can be made with some 
degree of reliability on the estimated costs and benefits of 
each alternative plan.
    Typically, a plan recommended by the Corps of Engineers is 
a plan with the greatest net economic benefit consistent with 
protection of the Nation's environment; however, the Corps does 
have the discretion to recommend another alternative if there 
is overriding reasons for recommending another plan based on 
other Federal, State and local concerns.
    By now many of us have seen the actual size of the typical 
studies carried out by the Corps of Engineers. On the desk down 
here on the dais is one feasibility study from the Louisiana 
coastline that is 9,000 pages. You can see it stacked up there.
    While these are complex projects that need be reviewed by 
the public and other State and Federal agencies, the level of 
analysis required by other laws and regulations are crippling 
the project delivery process. For example, the study at the 
Sabine-Neches Waterway navigation project was authorized in 
June 1997 and the Chief's Report was transmitted to Congress in 
July of 2011. According to the feasibility study of the Sabine-
Neches Waterway navigation projects, more than 120 alternatives 
at nine different depths were evaluated prior to a completed 
Chief's Report.
    We are literally studying infrastructure projects to death, 
but this is not solely the fault of the Corps of Engineers. 
Congress needs to change the way the Corps of Engineers carries 
out its business. It is no longer acceptable that these studies 
take dozens of years to complete. Ultimately the Federal 
taxpayer is on the hook for these studies and for the length of 
time it takes to carry them out, delaying the benefits these 
projects ultimately are supposed to provide.
    As we move forward with what will be a policy heavy Water 
Resources Development Act, we will be focusing on accelerating 
the study and project delivery process as well as better 
prioritizing these worthwhile investments that the American 
public has relied on for decades.
    At this time, again I want to welcome General Walsh as our 
one-person panel. General Walsh is the deputy commanding 
general for Civil and Emergency Operations of the United States 
Army Corps of Engineers. And he is also accompanied today by 
Mr. Theodore ``Tab'' Brown. He is the chief of the Planning and 
Policy Division for the Army Corps of Engineers.
    So, General Walsh, welcome again, and the floor is yours.

TESTIMONY OF MAJOR GENERAL MICHAEL J. WALSH, DEPUTY COMMANDING 
GENERAL FOR CIVIL AND EMERGENCY OPERATIONS, UNITED STATES ARMY 
 CORPS OF ENGINEERS; ACCOMPANIED BY THEODORE A. ``TAB'' BROWN, 
 P.E., CHIEF, PLANNING AND POLICY DIVISION, UNITED STATES ARMY 
                       CORPS OF ENGINEERS

    General Walsh. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. I really am honored and it is a 
privilege to be testifying before you today to discuss the 
planning process and the Chief's Reports for the Army Corps of 
Engineers.
    My full testimony will describe all 21 reports that have 
favorably completed the executive branch review since enactment 
of the WRDA 2007. These proposals fall within the main missions 
of the Corps of Engineers and all of them will provide a net 
benefit to the Nation.
    I want to take the time here to discuss the four campaign 
goals of the Corps of Engineers and specifically the efforts we 
are making to transform the Civil Works program.
    First, we must support the warfighter with our work in 
areas of operations under the combatant commanders and on U.S. 
installations around the world. Many of our deployed civilians 
have civil works experience, which supports the mission inside 
the theater, and this work also provides them a broadening 
experience that will assist them and us when they return from 
harm's way.
    Second, we must transform Civil Works by modernizing the 
project planning process, enhancing the budget development 
process, using a smart infrastructure strategy to evaluate our 
portfolio of water resource projects and improving our methods 
of delivery.
    Third, we must reduce disaster risk and continue to respond 
to natural disasters under the national response framework as 
well as our ongoing efforts and authorities under flood risk 
management.
    Fourth, we must prepare for tomorrow, positioning our 
workforce and processes for the future challenges and focusing 
on research and development efforts that will help solve the 
Nation's greatest challenges in the Army and in the Nation.
    The Corps has been working to better equip the Civil Works 
program to effectively meet the current and future needs and 
ensuring that decisionmakers are fully informed. The Corps 
planning process modernization effort emphasizes execution, 
instills accountability, and improves the organizational and 
operational model to produce quality products that address the 
water resource priorities.
    The current focus of our planning modernization efforts is 
to facilitate the timely completion of decision documents that 
appropriately address the increasingly complex water problems 
that plague communities and constrain economic activity.
    The Corps has recognized the need to modernize its approach 
through the initiative that we call SMART planning. SMART 
stands for Specific, Measurable, Achievable, Risk-Informed, and 
Timely. The SMART planning approach to investigations reduces 
resource requirements by appropriately focusing on the key 
drivers to resolving water resource problems while complying 
with all the applicable laws and regulations. The goal under 
SMART planning is to complete most feasibility studies within 3 
years for $3 million or less. The end product is a decision 
document that has been fully coordinated by all three levels 
inside the Corps of Engineers organization. In shorthand, we 
call this goal 3x3x3. The Corps expects full implementation of 
this new approach in fiscal year 2014 and has been working with 
its Federal and non-Federal partners to use this new approach 
in evaluating water resource problems.
    The Corps is prioritizing its current portfolio of planning 
studies and applying this new approach to new and ongoing 
studies, thus reducing the number of active studies in its 
portfolio and focusing on efforts to complete these studies 
more effectively by prioritizing funding.
    Ensuring the continued performance of key features of our 
infrastructure is becoming more costly over time. Operational 
demands have also grown and changed, particularly over the past 
30 years, creating additional stress, and we are working on the 
infrastructure strategy to address these growing needs.
    The infrastructure strategy incorporates four focus areas: 
integrated approach to asset management, managing a system over 
its life cycle, evaluating whether a project or group of 
projects or related projects should remain a Federal 
responsibility prior to substantially furthering investment in 
that project, and potentially looking at alternative financing 
mechanisms.
    Transforming the way we deliver Civil Works programs 
requires state-of-the-art processes and a highly skilled 
workforce that is capable to responding to current and future 
demands. The strategy is to have reliable and efficient methods 
of delivery by linking technical capabilities to uniform 
national standards, maintaining corps competencies, and having 
consistent methods and processes throughout the Corps.
    The Corps has a strong tradition of working collaboratively 
with non-Federal interests and plan to deliver products. The 
current transformation initiative is no different. Our 
transformation partners include States, tribes, local 
governments, nongovernment organizations, nonprofit agencies, 
and the public. These partnerships are increasing and will 
likely continue to increase as we share a common goal of 
looking at reliable and resilient infrastructure for our 
Nation.
    Mr. Chairman, that concludes my statement. And, again, I 
appreciate the opportunity to address today.
    Mr. Gibbs. Thank you. I will start a round of questions 
here.
    We are talking about the process, and sometimes there has 
been multipurpose projects, navigation projects and eco-
restoration projects in conjunction. Let's give an example: if 
we have a port for a deepening project, which we know we have 
major challenges to a lot of projects that way, should it be 
bootstrapped with a restoration project, ecosystem restoration 
project, or can we break these projects up and focus on the 
economic ones to help move our economy along and really look at 
the economic benefit. And not saying there is nothing of merit 
to environmental benefits, but if we can get an economic 
benefit right away by focusing on that project and maybe laying 
off the rest of the complex projects. Does the Corps see itself 
moving that way to look at the benefits, both economic and 
environmental, and say if we get this part of the project 
going, we can get this part done and then maybe work on the 
latter later when the resources become available, especially if 
the partnership of the local sponsor is having challenges 
meeting their obligations for their cost share?
    General Walsh. Yes, sir. On a particular project, we have 
three major missions in the Corps, as you know: flood risk 
reduction, navigation, and ecosystem restoration. As we put 
forward the President's budget, we look at a balanced approach 
in making sure the portfolio is funded in all three of those 
major missions.
    In a specific project that has different features, we work 
along with the local sponsors in putting together a schedule 
that tries to meet all of the requirements in that balanced 
project.
    Mr. Gibbs. OK. I noticed in these 25 Chief's Reports we 
have here today before us, it is totaled about $14 billion of 
proposed spending. And I noticed on the navigation side, it is 
about $2.1 million, environmental restoration is about four 
times that, flood control is about $4 mil---if I get it right, 
billion. So basically, what we are looking at, environmental 
restoration four times more and navigation twice as much on 
flood control.
    Can you comment why there is such a difference in the 
numbers when you have four times more in navigation, twice as 
much in flood control? Why that would come about that way, 
especially when you consider the challenges we have out there 
on our infrastructure on rebuilding and refurbishing our hard 
assets.
    General Walsh. Mr. Chairman, I think they came in, because 
that is how the Chief's Reports were completed. They were not, 
as far as I know, directed one way or another. I know that 
there are more Chief's Reports that are out there that will be 
coming in between now and the end of the year that will change 
that ratio drastically as well.
    Mr. Gibbs. But you are aware that----
    General Walsh. Yes.
    Mr. Gibbs [continuing]. You know, that the ratios are sort 
of----
    General Walsh. Yes.
    Mr. Gibbs [continuing]. Way out of place there.
    On your SMART process, you talk about SMART planning, I 
have a chart here of the Civil Works project delivery process. 
It is a 20-some-step process. This could take, I don't know how 
many years, maybe 15 years. Seven years to get a Chief's 
Report. Is that typical?
    General Walsh. Yes, sir.
    Mr. Gibbs. Are you familiar with this?
    General Walsh. Yes, sir.
    Mr. Gibbs. Is there any way in your SMART or your 3x3 that 
you can combine some of these different areas and condense 
them, do you have any recommendations?
    General Walsh. Yes, sir. The key item that we are looking 
underneath the SMART planning process is to make sure that we 
have the project scoped realistically. Many times we have 
looked at a lot of alternatives that may have not quickly gone 
to a solution that is required by the project.
    I am not looking at particularly cutting out particular 
processes there, but making sure we get through them more 
rapidly by putting together a planning charrette, which is 
where we bring all three levels of the Corps of Engineers, the 
headquarters, the division and the district together and we 
come and look at that scope rapidly, make sure that we agree so 
that we give direction to the district to move forward more 
rapidly.
    Mr. Gibbs. And let me just interrupt you right there, 
General. I have got a question on that. When you bring the 
district, the region and the DC headquarters together, I assume 
the purpose is everybody is looking at it the same time, so it 
is not going through one level and then they don't know about 
it, but I guess my concern would be if it is done right, it 
makes sense, but my concern would be is that we don't have just 
a top-driven system from Washington that overrides and doesn't 
let the process work either, so I am really concerned about 
one-size-fits-all policies coming out of this town.
    So if they are all looking at it the same time to speed up 
the time, that makes sense, but I would have a concern about 
taking the local and the regional more out of the picture of 
the decisionmaking process. How do see that fitting?
    General Walsh. Sir, the local sponsor who typically comes 
up with a good deal of the funding has significant control of 
the of the process. When we go through the planning charrette, 
we are looking at the different alternatives and whether they 
are going to have policy issues as they bring things forward. 
We also look at risk assessments if there is a particular 
solution that they want to bring forward. There are half a 
dozen risks that you need to identify and work through to get 
through the policy review that we do here at the headquarters.
    Mr. Gibbs. I think you have been in this position a little 
over a year now?
    General Walsh. Yes, sir.
    Mr. Gibbs. I think you have made some work to speed up some 
of these processes. What have you seen of the backlog? How are 
we doing on the backlog?
    General Walsh. Sir, we have been working on the planning 
process specifically. We had about 650 feasibility reports that 
were out there in various shapes, many of them unfunded for 
many years. We went through a process of putting these projects 
that were active into an inactive status and took those off the 
shelf. We reduced that to about 200, and will be funding those 
that are closest to being complete. We will put a priority on 
those, finish those and get to the next one.
    Mr. Gibbs. That makes a lot of sense. My time is up. I 
yield to Ranking Member Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. General Walsh, thank 
you very much. Just to pick up on one of the points that the 
chairman made in his question, he cited the Chief's Reports 
that are post-WRDA 2007. The 14 Chief's Reports that we are 
getting in between now and December 31st, their breakdown, 
navigation 21 percent, environment 14 percent, flood risk 
management 43 percent, and hurricane and storm damage 21 
percent. So it just shows the difference that you had one crop 
that had a density in the environment, we now have another crop 
that has a density in flood risk management. So I would imagine 
that that is typical in terms of how projects distribute 
themselves over a period of time. Is that about right?
    General Walsh. That is correct, sir.
    Mr. Bishop. Thank you. General Walsh, you have been perhaps 
the prime mover of the 3x3x3 process. It has been in place now 
for about 3 years. Can you identify with some degree of 
specificity how it has actually worked? Has it improved the 
efficiency? Has it reduced the time it takes to move a project 
from the point where it is initiated to the point where it is 
ready for construction or actually under construction?
    General Walsh. Yes, sir. I believe that it will move the 
process forward in regards to getting a Chief's Report, mostly 
because we will have the full vertical team, that is the 
division headquarters, my headquarters and the district, 
working together before a project starts in what we call a 
planning charrette to make sure that we are looking at all the 
alternative solutions to a particular project. Really what we 
are looking at is at the start, make sure that we have 
realistically scoped what the possible solutions are. We then 
put together a risk register, those things that we have looked 
at but we think are not going to be a major player in a 
particular project. We will put a risk register together, say 
we looked at that particular issue and don't believe it is 
going to be a major part of the project, so people understand 
that we have looked at that particular issue and moved it off 
to the side.
    So, yes, I think we are going to move things more rapidly 
as we move into a decision type of report, not getting so much 
data just to fill the report up and look at a lot of different 
things. What are the minimum things that I need to look at for 
the decisionmaker to make a decision. We have been looking at a 
more efficient and effective way of doing planning for a number 
of different chiefs. General Strock was looking at that 
specifically, General Van Antwerp as well. And General Bostick 
has adopted this approach in his Campaign Plan. So the 3x3 
method of planning modernization is codified in the Chief's 
Campaign Plan.
    Mr. Bishop. What impact, if any, has the 3x3x3 approach had 
with respect to the process followed by other Federal agencies 
with respect to Corps-related projects?
    General Walsh. Sir, we are working with the other Federal 
agencies both here in Washington and at the local level, 
explaining to them how the process works as we move from 
decision to decision to decision, so I think we are working 
together closely.
    Mr. Bishop. OK. Thank you. It remains the case, does it 
not, and please, please correct me if I am wrong, that the 
biggest impediment to moving a Corps project from its 
initiation to its completion is the funding source, whether it 
be the funding source from the Federal Government or whether it 
be funding from the non-Federal partner with which the Corps is 
working. Is that correct?
    General Walsh. Yes, sir. The stop-and-start funding 
certainly hurts or increases the duration of a study.
    Mr. Bishop. OK. So when I said in my opening remarks that 
we have met the enemy, and it is us, in part what I was 
referring to was a process that we have imposed on the Corps, 
coupled with the process that exists in other Federal agencies, 
but the other is that we are simply not giving you sufficient 
resources to do the jobs that we have tasked you with doing. Is 
that correct?
    General Walsh. There are two things, sir. One, a lot of 
projects throughout the U.S. and trying to get to them all with 
the limited funds that we have. What we are looking at now is 
taking those projects that are closest to completion, give 
those a little bit more on the budget priority, knock them out 
and go to the next one, but certainly how much funds we put on 
a project significantly impacts its duration.
    Mr. Bishop. Thank you. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Gibbs. Mr. Crawford, questions.
    Mr. Crawford. Thank you, Mr. Chairman. And General Walsh, 
thank you for being here today. In your testimony, you 
mentioned the need for the Corps to prioritize Federal funding 
on the highest performing projects and studies. Could you give 
us some more detail on how the Corps measures the performance 
of pending projects and studies?
    General Walsh. There are a number of metrics that we look 
at. Certainly one that we utilize is the net economic 
development number, the cost-benefit ratio, but that is just 
one of the items that we look at. We also look at impacts to 
the environment and a number of other ratios as well, sir.
    Mr. Crawford. What role does the Corps division and 
district office play in determining priority projects?
    General Walsh. Sir, when we were looking at the 600 
projects that were on the shelf, I asked the division and 
district commanders specifically which ones that they would not 
be able to continue because of lack of funding or a non-Federal 
sponsor, and they sent back to us which ones they were not able 
to move forward. So they are clearly inside the loop and 
prioritizing.
    Mr. Crawford. OK. Let me shift gears a little bit. Can you 
give me your assessment of the MRT, Mississippi River and 
Tributaries project?
    General Walsh. Could you repeat that question, sir?
    Mr. Crawford. Your assessment of the MRT.
    General Walsh. Yes, sir. My assessment is that it has been 
quite successful from a systems approach. In 1928 after the 
1927 flood, the Chief of Engineers at that time decided to look 
at the lower Mississippi as a system. The Nation has invested 
about $13 billion over the last 60 years on that project, and 
it has prevented hundreds of billions of dollars worth of flood 
damages.
    In 2011, when we had the record high flows, we had to open 
up all three floodways so that we were able to move water 
laterally and not stack it up and lose some of our major 
cities.
    In 1927, tens of thousands of people lost their lives. In 
2011, there was no one that lost their life due to flooding 
because of that project.
    Mr. Crawford. And how would you gauge the recovery of the 
MRT in light of the 2000 flooding that took place? Has it 
recovered pretty well?
    General Walsh. General Peabody has been repairing the 
levees and using the emergency supplemental funds that were 
appropriated, and so I think it is recovering very well. Right 
now there are heavy flows, heavy water down in the lower 
Mississippi, and the system hasn't been significantly impacted 
from the damages that we had from 2011.
    Mr. Crawford. Excellent. And, finally, in October 2012, the 
Corps began reducing lock hours of operation due to stagnant 
funding and the need to address a growing list of maintenance 
projects. Is it currently possible for the Corps to accept non-
Federal funds to increase the hours of operation of Corps-
operated locks?
    General Walsh. Sir, we are looking at that specifically as 
to how to address the concern where we have for what I call 
levels of service. If you have over a thousand lockages a year, 
then we will continue to provide the 24/7 service that many 
folks have gotten used to. If you have less than that, then we 
are reducing those levels of service on a graduating scale.
    We have a team trying to figure out how to pull together a 
public-private partnership on how to transfer some of those 
lockage responsibilities to someone else.
    Mr. Crawford. Thank you, General. And congratulations on 
your retirement and thank you for your service. Yield back.
    General Walsh. Thank you, sir.
    Mr. Gibbs. Representative Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. And to dovetail, 
General--and thank you for your service, and good luck on your 
retirement.
    General Walsh. Thank you so much.
    Mrs. Napolitano. One of the things that is not spoken to is 
the sequestration impact on your staff, on your ability to move 
some of the projects. And if you were to by some crystal ball 
magic or something get the money to do the projects that need 
to be done, would you have the trained personnel to do it?
    General Walsh. It is tremendously important that we have 
trained people. I look at really to be a master at this, you 
need three things. You need education, you need training and 
you need experience. A lot of our staff have that, but a lot of 
them are reaching that mature age and moving on to other 
places. So we are revamping our training, particularly in the 
planning community. We are putting that training together now, 
and we are requiring that planners be certified in the work 
that they do.
    Mrs. Napolitano. So it is possible you may not have enough 
experienced personnel to carry out some of the projects if you 
did have some of the funding?
    General Walsh. Congresswoman, we call this methods of 
delivery. If the planners in one particular district don't have 
the experience needed to bring a feasibility study home, they 
will go to other districts that have that trained personnel 
that can get that work accomplished.
    Mrs. Napolitano. You are borrowing from Peter to pay Paul?
    General Walsh. No. Actually it is to work that experience 
part. And so those people that have a lot of experience, let's 
get them in there and they will----
    Mrs. Napolitano. OK.
    General Walsh [continuing]. Bring the folks who have not 
done a feasibility study along with them. The sequestration has 
required us to put $253 million off to the side for the 
sequestration bill, which is significantly impacting the water 
resources program.
    Mrs. Napolitano. Thank you for the answer. The fact that in 
my area we have had a problem with raising levees, and one of 
the water agencies wanted to participate and be able to help 
pay for the study, and we were finding it very hard to have the 
Corps accept money. So that should be a priority, because there 
are entities that are willing to work, financially support a 
project or at least to increase the State portion of it to be 
able to get it done, because of many factors: security, the 
environmental, keeping more water captured, et cetera.
    General Walsh. Yes. We have an ability to do that, it is 
called contributed funds, and there is a process where we are 
taking sponsors' funds above what is required, making sure we 
bring it through our oversight committees, and we are accepting 
their funds.
    Mrs. Napolitano. I would love to have some of that 
information, General.
    The other question, from your experience, has the Chief's 
Report development process provided a viable process to address 
critical procedure or construction issues, and are there 
examples of where your report development process has uncovered 
concerns that have led to a project either being rescoped or 
abandoned?
    General Walsh. Yes, Congresswoman. As we try to find 
solutions to the challenges that are out there, sometimes we 
will find where the solution costs more than the problem. We 
call it the national economic development number--NED--the 
benefit-cost ratio is less than one, and then we will stop work 
on that particular project. So, yes, as we go through the 
process, there are some that drop out because there is not a 
viable solution that we, the Corps, can be involved with.
    Mrs. Napolitano. Well, from your experience, does the 
Chief's Report development process capture, review the 
necessary technical and financial issues that are important for 
the implementation of most cost and time effective Corps 
construction projects? If not, can you identify where 
additional oversight or review could be value added?
    General Walsh. Congresswoman, WRDA 2007 requires an 
independent technical review of our work on particular projects 
that are over $45 million or are contentious. So Congress 
required us to do that, and have outside folks come and take a 
look at our work.
    Since Congress put that into place, we have executed 29 
projects going through the independent expert review panel at a 
cost of about $9 million. Most of those reviews have not 
changed anything in our reports in regards to the solutions. 
They have recommended a number of different areas where we tell 
the story slightly differently as we put our reports together.
    Mrs. Napolitano. Thank you for your answers. Mr. Chair, I 
yield back.
    Mr. Gibbs. Mr. Denham.
    Mr. Denham. Thank you. Good morning, General. It is a 
project the Corps has been working on prior to my time and my 3 
years in Congress and even prior to my 8 years before that in 
the State Senate. I have continued to work with them before I 
was in elected office and now for nearly 11 years that I have 
been in elective office. And my question is not so much on the 
project as much as it is on the process. And you presided over 
a Civil Works Review Board on March 27th, and that resulted in 
a unanimous vote on Orestimba Creek, the project that I am 
talking about. And as you know, this project has been long 
overdue and many of the new SMART planning techniques that you 
discussed in your testimony eventually applied to this study.
    So my question is, can you discuss the challenges that have 
led up to the delay in completing Orestimba Creek and how your 
new planning techniques were applied to get over the finish 
line, ultimately leading to a planning award that you received 
for the project; and secondly, do you think Orestimba can be 
used as an example for legacy projects going forward?
    General Walsh. Thank you, Congressman. Yes. Part of the 
delay was the funding stream that came in for that particular 
project that would start and stop, $100,000 one year, $50,000 
the next year, the following year there wouldn't be any funds, 
and so that caused a lot of concerns.
    Another good portion of that project was where the local 
sponsors wanted to find a solution that was not viable, and so 
we looked for a dam or flood storage up in the foothills, and 
we had to look at that from an engineering perspective, also 
from an environmental perspective and its impact on California 
water. It took a number of years to look at that and describe, 
as mentioned by Congresswoman Napolitano, that that solution is 
not viable. It took a while to get through that.
    Finally they came up with the solution that they delivered 
to the Civil Works Review Board 2 weeks ago, and it is an 
excellent product. We will put that out for State and agency 
review now. It is about 100 pages of what is needed to make 
that decision.
    Mr. Denham. So now the study has been released for the 38 
State and agency review, when do anticipate a completed Chief's 
Report?
    General Walsh. We will put it out for public comments, 
address those comments, and I suspect we will have a Chief's 
Report by the end of the year.
    Mr. Denham. And going forward, what do you believe is the 
best course for Congress to take in authorizing new projects 
and ensuring they are completed in a timely manner?
    General Walsh. The process is to put together a WRDA and 
authorize the reports that the Chief of Engineers has gone 
through extraordinary details in making sure that they are 
complete and together. Before that report comes to Congress, we 
do a district quality control, make sure that that is reviewed 
from a quality control point of view. We take that report and 
bring it to another district to review it again, and we call 
that agency technical review, and then we have policy reviews 
up here at the headquarters. Twice it goes out for public 
review, State and agency review, and so by the time it comes 
over here as a Chief's Reports through the administration, we 
are giving you an excellent, excellent product. I usually call 
the Chief's Report the gold standard for Congress to authorize 
through a WRDA process.
    Mr. Denham. And as we are moving through the WRDA process, 
is there anything that you can see that can help us to make 
this process more efficient, more streamlined, things that you 
would need congressional authorization for?
    General Walsh. Sir, there are a number of items that we are 
working on as we are trying to streamline and husband the funds 
that we do have. We have a lot of projects that we should be 
looking at and perhaps seeing whether they should be de-
authorized or repurposed or taken off the Federal books because 
they are not providing a Federal return. We are looking at the 
de-authorization process and how the administration can figure 
out how to work that particular process.
    Another thing that we are looking at, sir, is our 
alternative financing. Is there a way for others to finance. If 
we are not going to be able to get a steady stream through the 
Federal appropriations process, maybe others can do that, very 
similar to here in Virginia, where they have a public-private 
partnership where the private organization has built portions 
of the highway and are being reimbursed from a different 
process. There are a number of different ideas that are not 
quite ready for us to share; we are still working on those 
things as we move forward.
    Mr. Denham. And a final very quick question. Are dams no 
longer viable in California under the Corps opinion?
    General Walsh. I am not sure how to answer that. I think 
those dams that I worked on when I was a district commander in 
San Francisco and Sacramento, they were needed for their 
intended purpose. There are some projects where the intended 
purpose is no longer necessary, and they should probably be 
transferred off of Federal books to somebody else who does need 
those particular projects, but I couldn't say from a blanket 
statement that any dam is not needed.
    Mr. Denham. Thank you. I will follow up in writing on more 
specifics on my question. Thank you. Yield back.
    Mr. Gibbs. Representative Frankel.
    Ms. Frankel. Thank you, Mr. Chairman. And, you know, one of 
the reasons I am sitting here is because projects that Army 
Corps is working on are very, very essential to the economy of 
south Florida, where I represent, and also helps in safety, 
because just for example, Everglades restoration and major 
dredging projects in our ports are very, very important.
    And I want to just say to both the chairman and the ranking 
member that I agree with both of your statements, and I am glad 
that we are stepping up to the plate to take responsibility, 
because just from my experience working back home, the process 
of getting a project--getting a Chief's Report is--you just 
could pull the hair out of your head really. I can't--I guess 
that is the best way I can explain it, without attributing 
blame, because I always think that--I think Congress should 
take the responsibility, and therefore, streamline this process 
and fund it where it is appropriate, but I don't think it is 
one or the other. I think it is both that perhaps--certainly we 
are not doing our job with the funding, but it seems to me that 
we have created some roadblocks, maybe overprotectiveness in 
certain areas that we could really give a little bit of leeway.
    And, Mr. Chair, I wanted also to comment that I know the 
approach the Senate has taken, which is basically, it seems to 
me, to give away our responsibilities on these projects by, I 
think they have said that they are going to allow--authorize 
any project that has a Chief's Report. And from my point of 
view, I will say from south Florida, we have been waiting, for 
example, for a Chief's Report in Port Everglades for more than 
a dozen years; I don't know, maybe 15 years or so. I think we 
are on track now, but maybe not to be finished till the end of 
the year. And with the--it is a dredging project. With the 
expansion of Panama Canal, we really can't afford not to have 
an opportunity to be authorized just for the amount of money.
    Mr. Gibbs. Would you yield for a minute? Would you yield? I 
believe the Senate WRDA bill gives any Chief's Report that goes 
through a Chief's Report, gives OMB the ability to move it 
forward. The Senate WRDA bill actually delegates our response--
I believe our congressional responsibility to the executive 
branch in a 3-year timeframe, my understanding. So I believe 
that is what you are referring to.
    Ms. Frankel. Yes. That is right.
    Mr. Gibbs. OK.
    Ms. Frankel. Yeah. Right. That is correct. So, I mean, I 
think that--well, I think we should keep the authority, Mr. 
Chairman, but I also--I am concerned about the timing of 
getting these Chief's Reports out and getting these projects 
authorized. And I wanted to emphasize the fact with the Panama 
Canal expansion, I think in 2015, is that the projected date, 
that, you know, ports like Port Everglades, and there are 
others, really need to get moving on these dredging projects.
    So one of the questions--sorry. I have a very sort of 
simple question, which is, without authorization in this 
particular Congress, if we actually do pass legislation, is it 
true that there is--that you cannot go to the next--even if you 
get a Chief's Report, let's say by the end of the year, that 
you cannot go on to the next stage of the planning and the 
design, that we would have to wait for another bill, another 
authorization?
    General Walsh. To begin construction, we would have to have 
the project authorized. There is a process where we can start 
planning, engineering and design to do some of the work prior 
to that, but again, from a funding level, there is less and 
less ability to put planning, engineering, design funds on a 
project before it is authorized.
    Ms. Frankel. Thank you.
    And just--Mr. Chair, I just would urge that--I agree with 
your--I absolutely agree with your comments that we need to 
streamline what is going on, but I hope that we will not use 
that as an excuse not to move some of these very important 
projects forward. Thank you, sir.
    Mr. Gibbs. Mr. Hanna.
    Mr. Hanna. Thank you, Chairman.
    Of the total number of projects that you work on, how many 
fit within the 3x3x3 criteria?
    General Walsh. Congressman, it is going to start in fiscal 
year 2014, although most of the districts have taken and 
wrapped up with the ideas of SMART planning, looking at making 
sure we have the scope down correctly and are moving forward. 
The direction from the Chief out to the field is if you want to 
be in the budget request in the 2014, 2015 budgets, then you 
need to have your project rescoped using the 3x3x3 method. So 
you----
    Mr. Hanna. But what does that look like in real terms? I 
mean, how many--you said we can look backwards and figure out 
how many projects would fit into that criteria. So as a 
percentage, what does it really cover, and are we avoiding the 
vast number of much larger projects that are even more 
important, letting them fall to the 8-, 10-, 12-, 15-year 
timeline?
    General Walsh. No. Those projects will be in the 3x3x3 
methods, with the exception of watershed studies; we are still 
looking at how to streamline a watershed study.
    Mr. Hanna. You used from the 1974 Public Law 93-251, a 
discount rate for water--and this is in your testimony--Water 
Resource Development Act of 7 percent. You mentioned that this 
is not the same discount rate as used by the executive branch 
for budgeting and economic benefits.
    How do you--since it is almost 40 years old, how accurate 
is that and how much sense does it make to have two discount 
rates out there?
    General Walsh. Sir, as we put together the Chief's Reports, 
we use the current rate. And as it goes through the 
administration budget process, they use the 7-percent rate as 
they try to, I guess, equalize the studies that were finished 7 
or 8 years ago or 30 years ago to those studies that are coming 
through now.
    Mr. Hanna. How much time is spent spinning your wheels 
around a project that is funded and takes over 5 years and 
during the process actually the funding is lost and not 
refunded?
    General Walsh. I am sorry, sir. I didn't understand the 
question.
    Mr. Hanna. Congress funds these projects for a period of 
time, and clearly that time span in many cases before the 
process can be studied has expired. What does that mean in real 
terms to you?
    General Walsh. Certainly it slows the project down, both 
Federal and non-Federal funding; if there is not a steady 
stream of efficient funding, the project continues to be 
inefficient and not able to deliver on its benefits.
    Mr. Hanna. But does it also suggest, because you take so 
long to study these that the process shouldn't even be started 
unless the funding is given to you through the entire timeline?
    General Walsh. We use the funds that are appropriated 
until----
    Mr. Hanna. Hope for the best.
    General Walsh [continuing]. And then put a project on hold 
for lack of funds.
    Mr. Hanna. Thank you. Thank you, Chairman.
    Mr. Gibbs. Representative Holmes Norton.
    Ms. Norton. Actually, the question of my colleague went to 
one of my major concerns. Given the number of projects that 
have been fortunate enough to be started but not completed, is 
that process--does that process of funding depend upon annual 
appropriations or upon funding in your--that you have set aside 
somehow in your own budget?
    General Walsh. Typically, Congresswoman, that is from an 
annual perspective but there are a number of caveats that if 
you have funds that you didn't expend in 1 year you can carry 
those funds over and keep the project going with carryover 
funds as well.
    Ms. Norton. I am wondering what happens if a project is 
started, no funding for a number of years, I very much 
appreciate the new approach, seems to me a commonsense 
approach, I don't see how it could have been avoided in the 
first place of going to those who were closest to completed, 
but the very fact that you are only doing that now suggests 
that you weren't doing that before. If you weren't doing that 
before and you had all of these uncompleted projects, how did 
you keep the funds from being wasted?
    How were you funding these projects if you weren't going to 
the ones that were closest to being completed?
    General Walsh. Congresswoman, each of the projects that we 
have moved forward began with the idea that we are going to 
bring them to conclusion. As we are putting together a planning 
study, we are doing engineering analysis, we are doing real 
estate analysis, we are doing flood, economics, environmental 
and all of that data is still there and available and if we 
can't use it to move forward with the Federal project, perhaps 
the locals can use that for a project.
    Ms. Norton. I am interested in projects that may have been 
started and not completed.
    How many projects were out there that have been started and 
for lack of funding have not moved forward?
    General Walsh. Many.
    Ms. Norton. Now if you ever get back to such a project, 
don't you find that some of the work has to be repeated or that 
there has been deterioration from an engineering point of view? 
Would you describe to me what letting a project lie fallow for 
years waiting for funding does to that project, its completion 
and the efficiency of doing so?
    General Walsh. It will significantly impact generating the 
benefits that the project was supposed to do.
    Ms. Norton. There is some deterioration and degeneration of 
work already done?
    General Walsh. If we start a physical construction 
certainly that will be the case, and we have a project that we 
call Olmsted that will be out of authority at the end of the 
year and we will start slowing this project down to the point 
where we will be taking all the workers off of the site and 
just putting a security guard at it.
    Ms. Norton. If anybody is interested in Government waste, 
this is one of the most, one of the greatest wastes one could 
even imagine because if you ever get back to that project and 
you can't even assure me, General Walsh, can you, that you will 
ever get back to such a project because the funding may not be 
there?
    General Walsh. Right. Without the authority and the funding 
to move forward to complete a project, we would have to close 
it down.
    Ms. Norton. So you are going to have a partially done 
project. All of that money should be counted as wasted. There 
is a project here in the District of Columbia which is 
considered quite high priority, and I am talking about the 
levee on the Mall. And the reason, of course, that it is high 
priority is that all your iconic monuments are located either 
on the Mall or in the vicinity of the Mall. You have difficulty 
with the contractor. I have been briefed on that.
    What is the state of this levee project on the Mall to 
protect the National Mall where you were only funded for phase 
1 and what will come of phase 2?
    General Walsh. We will be able to use the funds 
appropriated to move forward as far as the funds are available 
and hopefully it will be enough to finish up phase 1. As you 
mentioned, we have had a challenge with the current contractor, 
and we have moved him off the site and asked his surety, his 
insurance bond, to come and take that project over. The 
district commander is still in negotiations with the surety.
    Ms. Norton. Is there any chance that the levee on the 
National Mall would be left unfinished?
    General Walsh. If there is not enough funding then we would 
not be able to finish the project.
    Ms. Norton. But you say the funds had been appropriated, 
you had problems with, of course, the contractor. You have 
surety. Now that you have surety, can you assure me that with 
the available insurance the levee, the Mall levee will be 
completed?
    General Walsh. I can't give you----
    Ms. Norton. At least phase 1.
    General Walsh. I can't give you that assurance right now 
but I will talk to the division and district commander and 
respond to you.
    Ms. Norton. I wish you would get the response to the 
chairman, who I am sure will let me know within 30 days.
    [The information follows:]

        The Corps and the surety are finalizing a takeover 
        agreement to resume construction of Phase I of the 
        project. Upon execution of the takeover agreement, 
        construction of the 17th Street closure structure would 
        resume, and should be completed within available 
        funding.

    Mr. Gibbs. OK.
    Ms. Norton. Thank you.
    Mr. Gibbs. Time is expired.
    Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman. I have a question, 
General, there is a list of final reports that are still under 
development and we have four projects in the Everglades I know 
you know about and there is still one that is still not 
finalized which would be the fifth project. There is an 
italicized date here of December 2013, which would be this 
year, that the potential of it being finished. There is, 
though, a little sub thing that says, barring any legal 
problems. The project is the central Everglades pilot project 
and there is an ongoing decades old lawsuit dealing with water 
quality, and I would assume that would be maybe the biggest 
hold up, I don't know.
    But my question is, is there any guarantees that that could 
be settled before the end of this year or anything that you 
might be able to tell me about that, that we could finalize 
that after it has been going on for a long time.
    General Walsh. Yes. We are working on it diligently. We 
brief the Assistant Secretary of the Army fairly often on that 
particular project. I couldn't guarantee we are going to have 
it done but we are putting the appropriate amount of effort to 
make sure we can deliver on that.
    Mr. Webster. Would it be true if we were to stay with the 
way it is done right now in the 2007 WRDA bill and policy would 
remain the same, if we miss that deadline for getting the 
Chief's Report in, it would have to wait until the next passage 
of another WRDA bill in order to get included; would that be 
true?
    General Walsh. People sometimes think that it just needs a 
Chief's Report submitted to Congress. What it really needs is a 
Chief's Report which has been submitted to the administration, 
goes through administration review and then sent over to 
Congress. I believe the current authority is those Chief's 
Reports that come to Congress from the administration are 
available for the Congress to authorize. So it would----
    Mr. Webster. Yes. I was only looking at my next step which 
is a big step is getting that Chief's Report.
    General Walsh. The next step is the Chief's Report but it 
won't be over to Congress until it comes through administration 
review.
    Mr. Webster. But my question is if we miss that deadline, 
we would have to wait, if current policy stayed in place we 
would have to wait until the next WRDA bill in order to get 
that project moving.
    General Walsh. Yes. That will be the next opportunity for 
regular order to authorize a project.
    Mr. Webster. Thank you. I yield back.
    Mr. Gibbs. Mr. Nolan, do you have a question?
    Mr. Nolan. Thank you, Mr. Chairman.
    And General Walsh, thank you for your service and your 
testimony here today.
    I have got, I just have a couple of quick questions here. I 
don't know if you can answer them or not. I hope so.
    A person who is quite familiar with the committee and the 
Army Corps and some others have suggested to me that in 
reviewing the Chief's Reports over the years that perhaps as 
much as two-thirds of Corps projects have been concentrated in 
the southern United States. And perhaps that is the result of 
Katrina and the BP oil spill, but the States of Mississippi, 
Louisiana, Texas, Alabama and Florida, how much of the total 
Corps budget in your judgment is spent in the Katrina impact 
area versus elsewhere in the United States?
    General Walsh. Congressman, the Congress authorized $14 
billion to build the flood damage risk reduction system around 
greater New Orleans. And so that large amount of funding kind 
of changes the ratio of what things look like from around the 
U.S.
    I don't know what data your friend gave you, but certainly 
that $14 billion is--we are about $11 billion into that 
particular project, $3 billion left to work.
    Mr. Nolan. So if you exclude that, take that out of the 
picture, how does it apportion across the country do you think?
    General Walsh. I hadn't looked at it from that perspective, 
Congressman. I have worked as a district commander in 
California in both San Francisco, Sacramento, and we had plenty 
of projects there to work on. I was a commander for South 
Atlantic Division and we had a number of projects also in the 
Southeast and then I was a commander for the Mississippi Valley 
Division. So from where I have sat it seems to be evenly 
placed. But I never sat down to work the numbers or the 
authorizations. It really would depend on what data that you 
are looking for, authorized projects or funds or I am not quite 
sure what that data would show.
    Mr. Nolan. I am trying to get a feel for where all the 
projects and all the money is going.
    One other unrelated question but an important one, and that 
is how much additional revenue do you estimate is needed for 
the Corps to meet what the Corps perceives to be the Nation's 
existing needs?
    General Walsh. Sir, I don't know if I can have an answer to 
that. Certainly the water resource needs of the future in 
America is going to become more acute, I think. Oil was the 
significant liquid in the last century. Water is going to be 
the significant liquid in this century certainly in the United 
States. As water becomes more dear we are going to have 
significant problems like we have between Georgia, Florida and 
Alabama on who is going to be able to take water out of the 
river, the same thing with the upper Missouri and the lower 
Missouri States are arguing over water as well. I think they 
are going to be more acute in the future and we are going to 
have to address those as we get to it.
    Mr. Nolan. Are you reasonably certain in your mind that we 
will need additional revenues to meet the ongoing needs of the 
future?
    General Walsh. Yes, Congressman. We are going to have to 
address the water problems of this Nation in the future.
    Mr. Nolan. And that will require more revenue in your 
judgment?
    General Walsh. And that will require more authority and 
more funding.
    Mr. Nolan. All right, thank you very much, General, for 
your service and the great job that you guys do.
    General Walsh. Thank you, Congressman.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you. General Walsh, Mr. Brown, thank you 
for being here. Jen Greer, thank you also for being here. It is 
always nice to embarrass the staff once in a while as a former 
staffer.
    General Walsh. I try and do that as well, Sir.
    Mr. Davis. Well, good. Jen and I have worked together since 
she was in the St. Louis District and I have had the pleasure 
of working with the St. Louis District personnel, Rock Island 
personnel and Louisville District personnel for the last 16 
years and you have some fine people that work for the Corps of 
Engineers. So thank you for what you do.
    General Walsh. Thank you, Congressman.
    Mr. Davis. I want to center most of my comments and 
questioning on the Metro East levee project in southwestern 
Illinois. As you may know the levee district, a local levee 
district was created in 2009 called the Southwestern Illinois 
Flood Prevention District which was set up to bring in revenue 
to provide the local share of upgrading our levees that protect 
many of the areas in southwestern Illinois.
    It seemed at that time that FEMA was going to go through a 
de-accreditation process to move the levees into, to de-
accredit them to put them in much more of a flood hazards zone 
and therefore rising costs for many of my constituents and Bill 
Enyart's constituents in southwestern Illinois.
    The locals have done their job, they have put together the 
plan of action, they have made sure that they have gotten a 
revenue source to be able to move projects forward and they are 
a little frustrated right now.
    The first issue that has been brought to my attention is 
that there seems to be multiple layers of review in the St. 
Louis District and in Washington, DC, and it seems to stall the 
project to the sense that we are sometimes fighting a battle of 
who is going to wait the longest, FEMA or the Corps or the 
locals to actually get this project done. At a time when 
Federal funds are limited and we are asking these local 
sponsors like the Southwestern Flood Prevention District to 
take on more responsibility for improving these deficient 
levees, what is the Corps doing to expedite and streamline the 
technical and regulatory review process of these locally 
sponsored projects?
    In particular in the Metro East we have projects that are 
designed by private engineering firms, licensed professional 
engineers with documented expertise, but it seems these designs 
just get caught up in these layers that I mentioned. Can you 
explain this and answer this question?
    General Walsh. Yes, Congressman. By the way, the local 
levee district was excellent in bringing in revenues so that 
they can fund the projects that they need to move forward. The 
Metro East project was authorized to provide about 500-year 
level of protections and the locals want to work through, not 
go right to the 500, they want to go through a 100-year level 
or 1-percent chance of flooding to the 500-year. We have been 
working very closely with that board in making sure as they do 
the engineering, we have something that is called a 408 permit, 
to make sure that they are doing the engineering correctly 
before they significantly influence that levee. We wouldn't 
want, and I think you would agree, we wouldn't want them to do 
something on a levee that protects that city that was not a 
tried and true method of providing flood risk reduction in that 
particular area.
    They were using a technique that we hadn't seen used in a 
large way in that area. So we had to make sure that it was not 
only cutting edge but also going to be providing the benefits 
that were talked about.
    I think over time they recognized that that was not the 
solution and they have gone back and come up with a different 
more tried and true engineering solution to that project.
    Mr. Davis. Well, thank you, General Walsh. My time is 
running out so I am going to throw a few things in my last line 
of questioning to get you to respond.
    First of all, when do you expect the decision that might be 
made so that we can move through this 408 process? What is 
your, is any other information that the locals need to provide 
that is subject to review? And could we get a timeline on when 
a decision is expected?
    Also, could you let me know when a decision is expected on 
the request by the locals for a project labor agreement? The 
comment period is still open. I want to know if you expect a 
decision soon and if so when.
    And also, General, I look forward to working with you on a 
couple pieces of legislation that I have introduced. One is the 
private partnership, the Public-Private Partnership Act, the 
WIN P3 Act. I am really looking forward to seeing projects up 
and down the Mississippi and Illinois River move forward and I 
would love to hear a response on how you think that could 
affect the outcome of upgrading our locks and dams. And also 
since I represent an ag district we have a bipartisan piece of 
legislation called the Mississippi River Navigation Act. So 
hopefully both of these proposals that are in the Senate WRDA 
bill will be put in the House WRDA bill, and I would like your 
take on both of them.
    So thank you.
    General Walsh. Thank you, Congressman.
    Mr. Gibbs. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman.
    General, thank you very much for the work that you and the 
men and women in the Corps do. It is extraordinarily important 
across the Nation, I believe we have some issues on the 
Missouri or one of the rivers this morning with some levee 
breaks, so the protection of our population from flooding is of 
utmost importance. It certainly is in my district, I represent 
200 miles of the Sacramento River Valley, including the Feather 
and Yuba River systems and the Delta of California. For us, 
here in the dais, we have the responsibility, we just took $250 
million out of your budget for this year in sequestration and 
asking you to do more. I don't think that is responsible for us 
to do such a thing but we did it. Hopefully we can replace that 
money and more. The earmark is an issue, we have had many 
discussions about that in this committee, and we really need to 
get at that. It is something that is very, very important. We 
have the responsibility and we have foregone that 
responsibility by eliminating our ability to direct projects, 
and I would, I think we all know that. We have to find the 
courage to revisit and overcome the earmark.
    Specifically, General, you mentioned the 408 in the 
previous question. We have a 408 issue on the Sutter Butte 
Levee project, the Feather River program, about 40 miles of 
levee of utmost importance to Yuba City and the surrounding 
communities. I know this is being processed and I thank you for 
the work that is being done in getting that 408 approved and 
out of the way. There are no issues but if there is a further 
delay, we will miss this year's construction on a section of 
the Feather River Levee that has broken twice in the last 40 
years. Earlier many lives were lost. This is a Shanghai Bend 
portion of that. I ask for your attention to that and, if 
possible, quick action on it so that that project can get 
underway. It is not Federal funding involved here, it is a 
local program and State.
    Beyond that, there are going to be many issues. The WRDA 
bill that has been passed by the Senate only authorized those 
projects that have a Chief's Report at the time of enactment, 
which will probably cause projects that are important to 
Members in this House and maybe some Senators to be delayed, as 
was discussed a moment ago, for some period of time until there 
is a new WRDA bill. I think we ought to take a very close look 
at that.
    General, your comments on this would be appreciated. How 
can we overcome that particular problem where we would be 
dependent upon a Chief's Report until there is a new WRDA bill 
which could be years in the making?
    General Walsh. Congressman, both the chairman and ranking 
member talked about that in their opening statements. When the 
Water Resources Development Act started in the seventies it was 
planned that it would happen every 2 years. It hasn't and that 
is the method to authorize water resources projects. So I won't 
comment on the Senate piece but getting back to regular order 
as mentioned by the minority member probably is the approach.
    Mr. Garamendi. I suppose it wasn't a fair question to you. 
That is a question for us I suspect. So my apologies, General. 
I will let it go at this. If you would just take a quick look 
at the Sutter Butte project on the Feather River, the 408 issue 
is before you and your shop and quick review, all of the issues 
were addressed in the earlier review and if you could pop that 
out it would be very helpful and we can get that project 
underway this summer in anticipation of next year's rain, 
particularly on the Shanghai Bend.
    Thank you very much, General, and, Mr. Chairman, I yield 
back.
    General Walsh. Yes, Congressman. We will take a close look 
at it. It hasn't made it to headquarters yet. I am expecting it 
later this month.
    Mr. Garamendi. Mr. Chairman, if I might, General, 
California has been in the President's budget, has been well, 
not well cared for but there are many, many projects and a lot 
of work and I want to once again thank the Corps and the men 
and women in the Corps for their work on those projects 
throughout California and we really appreciate it. Hamilton 
City and others. Thank you.
    Mr. Gibbs. Mr. Ribble.
    Mr. Ribble. OK, thank you, Mr. Chairman. My name is Reid 
Ribble. I am from northeast Wisconsin, including the cities of 
Green Bay and Appleton, so right on the shore of Lake Michigan 
there. And I apologize in advance if my questions are redundant 
from something you have heard before. I had to step out of the 
room for about 10 minutes and somebody else might have talked 
along the same line but I have heard a lot of comments today 
about how do we speed things up, how do we make this more 
efficient, how do we actually get there.
    And based on your testimony today it sounds like a project 
typically begins with a reconnaissance study, which when that 
is done initiates a feasibility study, which is six steps in 
the feasibility study; concurrently going on there is a NEPA 
study, there are a series of checkpoints during this study to 
make sure you are complying with laws, and then after that 
there is a quality review of the study. After that there is an 
agency technical review of the quality review and then an 
external peer review.
    Going on into your testimony, the MSC commander performs a 
quality assurance review on documents that they are going to 
transmit to Corps headquarters which then Corps headquarters 
performs a 45-day policy review in advance of the Civil Works 
review. After the CWRB determines a report is sufficient, they 
release, the study is released for a 30-day State and agency 
review. After the State and agency review is done, the report 
of the Chief of Engineers is finalized and processed and the 
final package includes the agency responses to that, a signed 
report of the Chief of Engineers transmits a recommendation to 
the Assistant Secretary of the Army for Civil Works. It then 
goes to there upon receipt of the report of the Chief of 
Engineers shall review and provide any recommendation regarding 
the project to Congress within 120 days. The ASA(CW) prior to 
transmittal of a Chief's Report to Congress is responsible for 
determining that the recommendations of the Chief of Engineers 
are compliant with other policy, including applicable laws, 
Executive orders, and regulations, which entails an additional 
review to make sure that there are no unresolved issues. In 
addition, at the end of this you say in addition then the 
Office of Management and Budget under Executive Order 12322 
reviews the proposed project for consistencies with the 
principles and guidelines.
    Well, I am glad that they are reviewed.
    I am assuming some of these are required by law, that men 
and women like those of us sitting at the tables up here are 
making you do all these reviews. Some of them are probably your 
efforts to make sure that things are done right.
    But it seems to me that we have created a system of review 
that is now handcuffing the Corps from doing things that your 
Corps competencies should be able to do without these layers.
    And I am wondering is there a lack of confidence in your 
teams that you require all these reviews? Or how do we get to a 
place where we could actually streamline these things so that 
the process can move forward which would save the taxpayers' 
money and work would actually get done which would boost our 
economy?
    General Walsh. Thank you, Congressman. Sounds like you have 
got our process down. It is a difficult challenge to move a 
Chief's Report through all of the processes, which is why the 
Chief of Engineers has adopted our planning modernization 
process as part of his Campaign Plan so that we can do a 
Chief's Report in 3 years. That is his requirement to us, and 
we are moving forward with putting those together.
    What that means is at the beginning of the process, we 
bring the three levels of the Corps of Engineers, the 
headquarters, the division and the district, and the non-
Federal sponsor together and we go through to make sure that we 
are scoping the project realistically. If it is a flood control 
project, what are the solutions to solve those, let's look at 
the policy level issues at the beginning of it as we are 
scoping the project and bringing it forward.
    Mr. Ribble. Can I interrupt you for a second? Is this 
process the same for all projects? Or is there a difference 
between a flood management project, which seems to be fairly 
complex, and maybe dredging the harbor way in Green Bay, 
Wisconsin, which seems pretty simple to me? Is the process the 
same?
    General Walsh. If the project is going to get authorized by 
Congress, they have to go through this process. Now if it is a 
small project we have the Continuing Authorities Program for 
those projects that are $5 million and less, and some people 
say abbreviated process. But I think trying to get to a Chief's 
Report in 3 years is the key item that we are working on, to 
get through all of those hoops and hurdles that you just 
mentioned, and I call them hoops and hurdles, but there are 
good policy reasons on why we do a lot of those, particularly 
State and agency review and public review, because there are 
things that we might not have looked at as we are doing the 
engineering analysis. And so we are looking to get those things 
completed now in 3 years.
    Mr. Ribble. And I would encourage you to the ability that 
you can to let us know what we can do to help you to streamline 
this process, whether it is concurrent review system or 
something, because this is hugely expensive to the taxpayer and 
the delay is even more costly to the economy.
    Thanks again for being here. I don't mean to be critical. I 
am just trying to get my arms around what we can do to get a 
better policy moving forward. And with that, Mr. Chairman, I 
yield back.
    General Walsh. Thank you, Congressman.
    Mr. Gibbs. Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman, and as I have recently 
had the pleasure of welcoming your crew from New England to my 
district a couple of weeks ago which made people very excited 
to have our Corps Day and you have an excellent crew, and I 
want to thank you. My grandfather helped build locks and dams 
on the Mississippi with the Corps back in the 1940s, so a long 
history.
    In the past, as has already been mentioned by my colleague, 
Mr. Garamendi, Congress prioritized projects in the Continuing 
Authorities Program. Given that that is not now happening and 
we are much more restricted in that, I am concerned that the 
program is oversubscribed heavily. And can you talk to us a 
little bit about how the Corps prioritizes projects in the 
Continuing Authorities Program at this point, how many projects 
are currently in the queue for example.
    General Walsh. The Continuing Authorities Program is 
oversubscribed and trying to get to those projects that are 
closest to being complete, prioritizing those, funding those at 
the highest that we can for capability reasons and then 
bringing them to a conclusion and then going to the next one 
down on the list is the best way I know to go get them to 
completion and then go down so you can get the next one. So 
instead of lots of projects with limited funds, let's just work 
down the list.
    Ms. Esty. And if you can give is us any advice. For 
example, I have a big I have a project in my district in 
Meriden, Connecticut, that has matched funding coming in from 
EPA on some elements on brownfields funds coming in from the 
State government on a variety of different issues.
    Is that something that would receive additional priority 
because you already have committed funds, HUD funds and 
elsewhere?
    General Walsh. It would certainly be included in the 
thought process in regards to prioritization. But again I don't 
know where that project is and how close it is to completion. I 
would have to look at that, but certainly having more people at 
the table contributing funds to a particular project is 
something that we are looking forward to in the future.
    We are looking forward to putting a future budget together 
based on the watershed approach. Right now we look at the 
program project by project and sometimes a project may have 
negative impacts in another area. So we are looking at how to 
evaluate all of the water resource needs in a watershed. We 
would bring together all the Federal agencies, nongovernmental 
and local governments, and try to figure out how to work on 
solving the water resource needs from a watershed approach.
    Ms. Esty. Well, I am very grateful to hear that because we 
are not in the water stressed regions of California but rather 
these issues on watersheds where if one community does one 
project, you can actually just aggravate issues further 
downstream with flooding issues. We are working very hard in 
Connecticut, for example, on restoration of borders of streams. 
Well, that has come in conflict with levee requirements in 
areas from 50 years ago and we are having a great deal of 
tension around that. So I think a watershed approach would 
actually be extremely helpful for a district like mine with New 
England where sadly with the increase of severe weather events, 
which was my previous hearing we were hearing about severe 
weather events on the Science Committee, that we are going to 
see more of this and we are going to see more rapid downpours 
putting stress on watersheds that previously didn't have 
flooding and now are going to have flooding.
    So again we share concerns about inadequate funding making 
your job difficult, making your task and our shared task of 
ensuring the safety of our communities and our citizens, 
putting them at risk. And we look forward to working with you. 
Thank you for your service. I yield back the balance of my 
time.
    Mr. Gibbs. Thank you.
    Mr. Rice.
    Mr. Rice. Thank you, sir, and thank you, General Walsh, for 
being here today. I have had the opportunity to meet with 
General Walsh, and your decades of service--distinguished 
service--I believe him to be an honorable and bright man who 
has done a lot for our country and your work on this 3x3 is 
critically important. I don't think there is anything more 
important than keeping our Nation competitive with the rest of 
the world. I think we are feeling a little bit in that regard 
not because of your efforts but because of ours, and 
infrastructure is the key to that. It is so hard to find the 
infrastructure dollars and when we have these processes and 
regulations in place that require these lengthy studies that 
you have to undertake, then a lot of those infrastructure 
dollars end up being diverted into the studies rather than into 
digging ports or laying asphalt or building levees.
    So, that is my key concern.
    I listened to the processes that Mr. Ribble ran out. I 
realize that we have got an incredible amount of work to do in 
that regard. Certainly we have to protect the environment, but 
we also have to protect our economy. So anything we can do, I 
think we have placed you in a vise. You are caught between 
Congress encouraging you, pushing you to make things happen 
more quickly and trying to satisfy the laws that we have in 
fact put in place. So I feel for you. I know you are in a tough 
spot. And I appreciate your efforts to do both. And I just want 
to know what we can do to help you accomplish that.
    General Walsh. Congressman, I think the recognition that 
infrastructure is key to the future, being competitive is going 
to be very important. A lot of times when we talk about 
infrastructure, we talk about roads, rails and runways and 
sometimes we forget to talk about rivers. And so as we as a 
Nation address the infrastructure issues of the future we need 
to also need to recognize that fourth R as we move forward.
    The American Society of Civil Engineers released their 
report a month ago that said that our infrastructure is a D, 
and not getting well fast. And so I don't know how--it will be 
a challenge to remain competitive as we move into the future, 
as other people are beginning to develop their water resources 
such as Brazil, India, China and others. And so I think we as a 
Nation need to recognize that the infrastructure is 
tremendously important and not so much an expense but an 
investment on future benefits.
    Mr. Rice. I completely agree with you and use those same 
words when I look at projects like the Port of Miami which have 
taken over a decade for approval and don't involve any Federal 
dollars, and when I look at the fact that the Panama Canal will 
be open for these post-Panamax ships in a year and a half and 
we are going only going to have two ports on the east coast 
that can take them, Baltimore and Norfolk. I recognize that we 
have got to get ourselves out of the way and get these 
infrastructure projects built because if they drop the cost of 
transporting a container by 10 percent and we can't take these 
ships then we are placing our American businesses at a 
competitive disadvantage and we will lose real American jobs. 
So we have got to work ourselves out of this conundrum. We have 
got to simplify this process.
    I so appreciate the fact that you have put yourself into 
this with this 3x3. My only encouragement to you is that we get 
it to a 1x1 because when I think about the fact that they have 
been working on in Miami port project for 13 years and you 
mentioned Brazil and India and China, I wonder how many ports 
have been deepened in those areas in that 14-year period, and 
even if we started digging today that Miami port project would 
not be completed by the time the Panama Canal is open.
    So it is a real serious crux issue for this country. And I 
look forward to your suggestions on how we can deal with it. 
Thank you very much, sir. I yield back my time.
    General Walsh. Thank you, Congressman.
    Mr. Davis [presiding]. The gentleman from North Carolina, 
Mr. Meadows, is recognized.
    Mr. Meadows. Thank you, Chairman Davis, and thank you, 
General Walsh, for being here. Mr. Brown, thank you as well. 
And I don't want to address any specific projects, but I do 
want to go back and follow up on what the gentleman from South 
Carolina was hitting on and it is about the speed of those 
projects.
    We never kill a project, we just study it. And the problem 
with that is we study it and study it and study it until 
eventually it either goes away or it gets defunded or people 
holler so much that we have got to do something about it. And 
so with the 3x3 process, I see a lot of our problem being more 
regulatory and administrative law versus just laws that are 
dedicated by Congress. And so what I would ask you to comment 
on specifically is what regulatory agencies do you see, whether 
they be Federal or State agencies, are creating the most 
burdensome regulatory compliance issues that you are having to 
deal with in order to get some of your studies done so that we 
can get construction to actually happen?
    General Walsh. Well, sir, we work with all the Federal and 
State regulatory agencies.
    Mr. Meadows. So if you could eliminate one which one would 
it be?
    General Walsh. I don't know I would eliminate the mission 
of any of the agencies that are out there. Certainly, and I 
know you might agree if you have traveled to a lot of 
international places, there are places that don't put as much 
effort in their environment, their water and air, and it is 
just deplorable. I think our environmental laws were put in 
place and have significantly helped our environment.
    Mr. Meadows. So you are saying you wouldn't change any of 
them? Because what I am trying to find out are what are the 
regulatory things that you are having to deal with that if you 
were in my position you would say well, let's get rid of this 
and you are saying every regulation and every policy that we 
have out there right now has an ultimate good, I think your 
quote was it is good policy.
    So you are saying you wouldn't get rid of anything to speed 
up the process?
    General Walsh. At this point as we go through the 
regulatory processes, people are looking at the things that 
were authorized by Congress for them to look at if they are 
talking from a Federal perspective.
    From the State, certainly the State historic preservation 
is something that we need to look at as we go through a 
particular project. And I think there, to look at things from a 
historical perspective is important and we should be doing that 
as well. So I can't think of something that I would say this is 
the red star cluster that I should ask you to take out.
    Mr. Meadows. Not a single Federal regulation that you would 
get rid of?
    General Walsh. Not a red star cluster that I would tell 
you, no, sir.
    Mr. Meadows. All right. Are there any other agencies that 
you would prefer to be under your purview where you don't have 
to work with somebody from a different agency so you can 
streamline the process that way?
    General Walsh. Sir, I think the laws of the land have put 
these agencies and processes into place to look at----
    Mr. Meadows. Let's assume that we can change the laws. What 
would you change?
    General Walsh. I wouldn't be able to put that out to you 
right now in regards to change. We work very closely with our 
regulatory agencies so that we can respond to their 
requirements and meet the national goals from an environmental 
point of view.
    Mr. Meadows. And so if we give you additional time, can you 
come up with recommendations that you can submit to this 
committee or are we just going to be going to have these kind 
feasibility studies that are sitting here in front of me 
forever that 90 percent of the people don't read anyways? What 
can we eliminate to streamline the process?
    General Walsh. What we are looking at now is, again, 
bringing the three levels of the Corps of Engineers to look at 
a project, at the scoping mechanism. We are looking at how to 
scope it realistically, and so I think that is what is really 
going to drive a smaller project volume than what you see there 
to what I am looking at--probably a 100-page report that we can 
bring over here to Congress.
    I think we can streamline from that perspective.
    But having our reports go through environmental, State and 
agency review I think is important to meet all of the needs of 
a particular project.
    Mr. Meadows. All right. So I am out of time and I will 
yield back, but this last question. So am I to understand there 
is not a single regulatory act or agency at this point that you 
would do away with to streamline the process other than the 
State historic?
    General Walsh. No, sir. I wouldn't. I would not be able to 
provide a list of those things that were put in place by law 
and that I have to abide by. And I did not say that the State 
Historic Preservation Office should be eliminated.
    Mr. Meadows. I thank the Chair's indulgence. I yield back.
    Mr. Davis. The gentleman from Long Island, New York, is 
recognized for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman. I want to pick up 
where the gentleman from North Carolina just ended. We have, I 
thought Mr. Ribble did an excellent job of delineating the 
process, the overwhelming majority of which has been imposed on 
you by us. And so I guess I want to ask the specific question, 
and I know you can't answer it now, but I do know that as we 
are preparing WRDA 2013 there have been conversations at the 
staff level about how we can try to streamline the process.
    Can I ask that you come back to us, not now, in writing, 
with whether of the 21 steps, are there any specific steps that 
we could either eliminate or consolidate with other steps? Or 
are there blocks of steps that we can either eliminate or 
consolidate as we look to go forward here?
    General Walsh. Yes, sir.
    Mr. Bishop. Thank you, General. I appreciate it. I think 
that would be very helpful for all of us as we try to work our 
way through this process.
    The other thing I just want to sort of emphasize a point 
that I made earlier and then ask a question about that. When 
Mr. Denham asked you the questions about the project that he is 
interested in in California and his concerns about how long it 
has taken, your response was, I am summarizing your response, 
that basically the funding stream was uncertain which delayed 
the project and that there was then, I won't say a 
disagreement, but some lack of consensus with your local cost 
share partner in terms of the right way to undertake the 
project, is that correct?
    General Walsh. Yes, sir.
    Mr. Bishop. So, two, a project that had a long gestation 
period and two of the problems were the problems that we have 
been talking about which are funding and cost share partner 
having either insufficient funds or a different idea on how the 
project should go forward.
    General Walsh. That significantly impacts the duration of a 
project.
    Mr. Bishop. So here is my question. I represent eastern 
Long Island. I have about 300 miles of coastline, including 
about 75 miles of Atlantic coast. We now have $5.3 billion 
through the Sandy supplemental that will go to the Corps to 
repair Sandy-related damage and mitigate against further damage 
if we are to get another storm of the same intensity as Sandy. 
Now that is a lot of money.
    Will that not give us an opportunity to see how the Corps 
can work through a process when the funding stream is 
guaranteed and, at least in this particular case, for Fire 
Island and Montauk Point reformulation study area projects, the 
local cost share, Federal Government is going to take 100 
percent of the cost share. So that will give us a mechanism or 
probably a living example for us to see how the Corps process 
works when it is adequately funded, right?
    General Walsh. Yes, sir.
    Mr. Bishop. OK. And that we also had that opportunity with 
Katrina right? Which we have got an awful lot done in a 
relatively short period of time with Katrina.
    General Walsh. Yes, sir. The three things we had at Katrina 
was full Federal funding, an abbreviated NEPA process, and a 
commitment from the Nation to get it done in a short amount of 
time.
    Mr. Bishop. I guess what I am saying is I want to make sure 
we keep our eye on the ball, that we are all talking about 
regulatory agencies and 21 steps--and by the way I don't mean 
to diminish the importance of those, but we could eliminate all 
of that, and if we give you funding in dribs and drabs year 
after year after year, projects are going to take a hell of a 
long time to get done, right?
    General Walsh. That is correct, sir.
    Mr. Bishop. Thank you very much, gentlemen. And I really 
appreciate your work and I wish you well in your retirement. 
Thank you.
    General Walsh. Thank you, sir.
    Mr. Davis [presiding]. Hello again, General. I left off my 
line of questioning, I ran out of time and didn't give you 
adequate time to respond to some of those questions. So I would 
like to reiterate a few of them.
    First off, can you give me an estimated time of when you 
think the 408 permit process for the Southwestern Illinois 
Flood Prevention District might be all issues settled and 
offered?
    General Walsh. Sir, the last time I looked at that was 
about 3 months ago. I would have to get an update from that. 
Three months ago we had not yet had the submission from the 
local sponsor. So I couldn't give you an answer because we 
hadn't gotten the submission and I don't know if we have it 
yet. So I will have to go back and look at it and certainly can 
have one of my staff call your staff later this week and tell 
you where we are in that process.
    Mr. Davis. Thank you.
    General Walsh. That particular issue had us look at 408 
issues, both minor 408 and major 408, and if it is a minor 408 
issue, they can resolve that locally, and if it is a major one 
it has to come to headquarters for our review.
    The last time I worked at that particular project, we 
decided that it was a major 408. But again if the submission 
has changed then it may be minor but I don't know the details.
    Mr. Davis. Thank you very much for that.
    I know the locals have also requested to use a project 
labor agreement on one portion of construction, on the Wood 
River cutoff wall project in Wood River, Illinois.
    Do you have an estimated time of when a decision will be 
made of whether or not that request will be granted or denied?
    General Walsh. I think it is still out for comment and as 
soon as the comment period closes, the district commander will 
make a decision. I will have to have staff get back with you 
later this week on the timeframe because I am not familiar with 
that.
    Mr. Davis. OK, thank you for that.
    Another one of my pieces of legislation that I talked about 
hopefully it is going to be included in any WRDA bill that 
passes our Chamber just like it is in the Senate, is our 
Public-Private Partnership Act, the WIN P3 Act, which I think 
could give the Corps some valuable tools to move projects that 
are essential right now up and down the Mississippi River in 
and around my district that are essential to my constituents' 
jobs and our local economy.
    Can you comment on how you think that piece of legislation 
or that language that is in the Senate WRDA bill in the 
language that is in our bill how could it positively affect 
some of the large infrastructure projects that you may be 
working on in the future throughout this country?
    General Walsh. Congressman, generally, we don't make 
comment on pending legislation. So I won't comment on either 
the Senate or your----
    Mr. Davis. But it is a good bill.
    General Walsh [continuing]. Your bill as well. But I think 
and we are working on how to use public-private partnerships in 
the future. Certainly our hydropower systems are running at 
about 89-percent efficiency. If we had more investments in our 
hydropower system and bringing the efficiencies up from 89 
percent to normal industry standards, which is about 98 
percent, if we can't fund that out of the general fund then 
let's bring in a public-private partnership, fund the 
difference and figure out a way for him to pull his investment 
out of that particular project.
    I have got guys working on trying to figure out how to do 
public-private partnership in water resources in the future, 
and that hasn't developed far enough along for me to share yet.
    Mr. Davis. OK. I have another bill, the Mississippi River 
Navigation Act, that I know you can't comment on. So let me ask 
you can you comment on how further study, more navigation tools 
for the Corps and forecasting improvements can help Corps 
prevent further problems like we saw last year during the low 
water on the Mississippi when it comes to navigation?
    General Walsh. Certainly we have a project that is called 
NESP, Navigation Ecosystem Sustainment Program, that is work on 
the upper Mississippi and we are trying to figure out how to 
forecast grain prices 50 years from now and that is challenging 
to do and put together a decent cost-benefit ratio on that. But 
we are still looking at what kind of tools can we use to pull 
that together.
    In regards to floods and droughts, at the beginning of this 
year we were in the flood stage and we were briefing everybody 
that needed to be briefed and 2 months later we were in the 
drought stage and we had to blow up the pinnacles down in the 
St. Louis area and now we are in flood stage again. I don't 
know, certainly working with the director of National Weather 
Service I don't know if the climatologists were giving us this 
variability in the last 4 months. I don't know that we have a 
tool that could do that. But certainly we are working with what 
I call the fusion cell between the Corps of Engineers, the 
National Weather Service, and the USGS to figure out how and 
where should we be investing resources so that we can have a 
better predictability on water and water resources.
    Mr. Davis. Well, thank you very much for those comments.
    I am concerned about the flooding that is going on right 
now. I understand that you have to deal with a wide variety of 
issues, droughts, floods. Thank you for all your district 
service in helping to fight the floods along the Mississippi 
right now. My heart goes out to the hard work that they are 
putting in on a daily basis.
    We want to give you more flexibility to be able to address 
those situations, which is why I put that bill forward. So if 
that is something we can do to allow you to come in and address 
emergency situations, I think we should work together to make 
that happen.
    My last line of questioning has to do with infrastructure. 
As I mentioned before, I have been working for your local 
districts for upwards of 16 years and we have talked about 
upgrading large lock and dam projects along the Mississippi and 
Illinois. I have heard comments from the Corps that even if we 
were to fully fund those projects that are authorized that it 
would take upwards of 40 years to complete the projects.
    Could you comment on the length of time that you think it 
will take to actually upgrade the locks and dams along the 
Mississippi and Illinois Rivers?
    General Walsh. Right now the funding stream is restricted 
with the Inland Waterways Trust Fund, which generates about $80 
million a year and out of the general fund comes another $80 
million, so $160 million a year to do the major work on the 
locks and dams. And so with that small funding stream, we are 
just not going to be able to keep up with the infrastructure 
that needs to be repaired.
    There is a lock down in Louisiana, it is call the Inner 
Harbor and it is 89 years old. As you go through that and the 
locks open and close, you can see concrete falling off the lock 
walls into the river. We are not going to get to that at this 
current funding stream for another 15 years. So it is going to 
have significant impacts on our infrastructure with the funding 
stream as it is currently structured.
    Mr. Davis. I completely agree, which is why we have our WIN 
P3 legislation that we are hoping to pass.
    I am concerned too about Olmsted. I think the Corps had the 
best intentions to build this in the wet and to come in as 
close to budget as possible but going from $775 million on a 7-
year construction cycle to $3.1 billion, we have got some 
issues when it comes to large infrastructure projects.
    What has the Corps learned in constructing that project 
that we can then take away to ensure that we don't hit those 
limits again or exceed them again?
    General Walsh. One of the issues that we are having with 
the Olmsted lock and dam again is the amount of funding that we 
can bring to that project. At $120 million a year is just a 
struggle to put together an efficient program to get that 
complete. What we have demonstrated down in Louisiana is if you 
give us, and Mr. Bishop already talked about that and the same 
thing for Hurricane Sandy, full Federal funding, we can go get 
it accomplished.
    In this case we are taking Federal funding and trust fund 
funding and moving forward at this little amount each year.
    The other piece is I think we just did not put together a 
good cost estimate when we initially put the project forward. 
So what we are doing now is we put together a center of 
expertise on cost reviews. That is in the Walla Walla District 
so every big project that we have we send over to Walla Walla. 
They make sure that we are doing a fair job saying how much it 
is going to cost as we move these projects forward.
    We will be pulling the men off of this project and right 
now we have three shifts. We will be pulling them off at the 
end of the year because there is not enough authority for us to 
put any more funds on that project. So it will have a 
significant impact on the benefits that were supposed to be 
derived from this project because of the funding, because of 
funding authority at this point.
    Mr. Davis. I hope we can work together and come up with a 
solution to that issue and a solution to make sure that project 
is completed.
    I want to thank you again, General, thank you, Mr. Brown, 
for being here. Thank you, Jen Greer, for being here too. He 
pointed you out this time. Thank you all for attending this 
hearing and the hearing is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
